           Office of Inspector General




June 22, 2006


MEMORANDUM FOR JOHN E. POTTER, POSTMASTER GENERAL,
         CHIEF EXECUTIVE OFFICER
                        E-Signed by Scott Wilson
                     ERIFY authenticity with ApproveI



From:              David C. Williams
                   Inspector General

Subject:           White Paper – USPS Cost Burdens
                   (Product Number MS-WP-06-001)

This White Paper describes the U.S. Postal Service Office of Inspector General’s
research into five major Postal Service cost burdens (Project Number
06YS004MS000). We have defined cost burdens as mandates that are wholly or
partially unfunded and borne by the Postal Service due to legislation or other
constraints; not borne by any other business; and considered by Postal Service
management to be outside the Postal Reorganization Act’s directives. In this
White Paper, we describe, quantify, and suggest ways to mitigate each cost
burden.

These cost burdens are briefly described in our March 2006 Semiannual Report
to Congress. This paper provides a more detailed description of these issues.

If you have any questions, please contact me at (703) 248-2300.

Attachment

cc: Patrick R. Donahoe
    Board of Governors
                          White Paper – USPS Cost Burdens

Introduction

The U.S. Postal Service is an independent establishment of the Executive
Branch almost completely financed by postal ratepayers rather than by
taxpayers. The Postal Service’s status often raises questions about its
responsibilities and who must pay for them. One aspect of this is that ratepayers
sometimes must bear costs unrelated to the Postal Service’s core purpose. For
the purposes of this paper, we call this a “cost burden.”

We have developed a three-part definition of a cost burden: (1) it is a mandate,
wholly or partially unfunded and borne by the Postal Service due to legislation or
other constraints; (2) it is not borne by any other business; and (3) it is
considered by the Postal Service’s management to be outside the Postal
Reorganization Act’s directives.1 The intent of the Postal Reorganization Act is
to allow the Postal Service to provide universal postal service in a businesslike
manner. Since the Postal Service is mandated to operate efficiently and
ratepayers finance it, cost burdens become an issue. It is one thing to ask
ratepayers to pay the extra costs of activities directly related to the Postal
Service’s core functions – such as delivering mail to remote areas or operating
post offices in small towns where there are no alternate means of service – but
another to ask them to pay for activities outside this mission.

This paper focuses on five major cost burdens we consider significant, not all of
which are easily quantifiable:

    1. The Postal Service may not be able to receive the rebate available to
       other employers who provide qualified prescription drug coverage to their
       annuitants (Medicare Part D).
    2. The Postal Service must provide air bypass service in Alaska (Alaska
       Bypass).
    3. Current laws prevent the Postal Service from freely contracting for
       international mail air transportation (International Air Transportation).
    4. The Postal Service must place the overfunding of its Civil Service
       Retirement System (CSRS) obligations in an escrow account (CSRS
       Escrow Account).
    5. The Postal Service must pay CSRS costs associated with retirees’
       previous military service (CSRS Military Service).


1
 . . . .The Postal Service shall have as its basic function the obligation to provide postal services to
    bind the Nation together through the personal, educational, literary, and business
    correspondence of the people. It shall provide prompt, reliable, and efficient services to patrons
    in all areas and shall render postal services to all communities. . . .
39 U.S.C. § 101(a) (Postal Reorganization Act Sec. 101(a))


                                                      -1-
We conducted a limited review of the five burdens. We interviewed Postal
Service officials and reviewed secondary research (see Appendix 1). In this
paper we discuss how well each issue fits our definition of a cost burden and
whether it is possible to quantify and mitigate the burden. A summary table
highlighting each burden, its cost, and possible ways to mitigate it appears in
Appendix 2.


Medicare Part D


What is it?
Eligible employees who retire from the Postal Service can continue participating
in the Federal Employees Health Benefits (FEHB) program, and the Postal
Service is responsible for the employer’s share of the premiums (roughly 72
percent). FEHB premium costs have risen rapidly in recent years due, in part, to
an increase in the cost of prescription drugs. In 2005, Postal Service payments
for retiree and survivor health benefits totaled $1.5 billion.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA) established a new voluntary prescription drug program (Part D) for those
eligible for Medicare. Effective January 1, 2006, Medicare participants are able
to purchase prescription drug coverage for an additional premium. To encourage
employers to keep providing prescription drug coverage for retirees, the MMA
also includes a rebate provision. Sponsors of qualified retiree plans can receive
a rebate for each Medicare participant who chooses not to enroll in Part D.
Government plans, including FEHB plans, that meet the requirements are eligible
to receive the rebate, but the Office of Personnel Management (OPM) has
announced that the federal government will not request it.


How is it a burden?
OPM’s decision makes sense for most federal agencies, as taxpayers fund the
prescription drug coverage either through Medicare or the FEHB program. We
believe Postal Service ratepayers, however, are entitled to the same relief
available to private sector companies and state and local governments. Without
the rebate, the Postal Service’s core mission of delivering mail will be more
expensive than necessary.


Can it be quantified?
The Centers for Medicare & Medicaid Services (CMS) have estimated the rebate
will average $668 per covered retiree in 2006. This could save postal ratepayers
$250 million per year. In the long term, the Postal Service believes the rebate
could reduce its annuitant health benefit obligations by more than $6 billion.




                                        -2-
Can it be mitigated?
Most employers have three options for responding to the new prescription drug
benefit: dropping their current coverage, designing coverage to work around the
new Part D benefit, or requesting the rebate. The least disruptive option for
Postal Service retirees is for the Postal Service to receive the rebate. The Postal
Service applied for the rebate, but CMS, in consultation with OPM, rejected the
Postal Service’s application. CMS and OPM could reconsider their decision and
allow the Postal Service to receive the rebate.


Alaska Bypass Service


What is it?
Alaska Bypass Service provides a way for businesses to send large shipments of
commodities (such as food) from Anchorage and Fairbanks to remote areas of
Alaska. The shipments, arranged on 1,000 to 2,500 pound pallets, bypass all
Postal Service facilities (thus the name “Bypass”) and go directly to eligible air
carriers on a rotating basis. Shippers pay parcel post rates to the Postal Service,
which in turn reimburses air carriers for flying the pallets to remote communities
where recipients can pick up their items. The Postal Service and air carriers
worked with Alaska legislators to develop the service in the late 1960s and early
1970s when wholesalers inundated the Anchorage General Mail Facility with
grocery mailings. The intent of the service is for the Postal Service to subsidize
both passenger transportation and the delivery of items to remote communities.


How is it a burden?
Alaska Bypass is a unique service the Postal Service does not offer anywhere
else in the United States. Additionally, it operates at a significant loss, which
postal ratepayers must cover. There are also restrictions preventing the Postal
Service from implementing the service in the most businesslike manner. For
example, the Postal Service cannot negotiate with air carriers. Instead, air
transportation rates are set by the Department of Transportation (DOT).


Can it be quantified?
According to Senator Ted Stevens (R-AK), the Postal Service was losing $100
million per year on air service in Alaska as of 2002. Congress has passed a
number of changes since 2002 aimed at reducing the burden on the Postal
Service and providing for better passenger transportation. Current estimates of
the annual direct loss to the Postal Service are $50 to $60 million.




                                        -3-
Can it be mitigated?
There are at least four possible ways to further reduce the burden to the Postal
Service of providing Alaska Bypass Service. First, the Postal Service could be
allowed to charge rates higher than Parcel Post rates (e.g., Priority Mail rates) for
this expedited air service. Second, the Postal Service could be allowed to
contract for Alaska air transportation directly rather than paying the rates set by
the DOT. Third, Congress could give the Postal Service more flexibility to
operate the service efficiently. Congress could set out specific goals for Alaska
Bypass Service and give the Postal Service complete freedom to achieve them.
The Postal Service would, of course, be accountable for the results, but it could
take advantage of innovations such as finding alternative methods of
transportation, building more transportation hubs, and extending delivery times to
produce similar results at less cost. Fourth, any remaining excess of costs over
revenues could be covered by appropriations from Congress similar to the
appropriations for free mail for the blind.


International Air Transportation


What is it?
The Postal Service carries most outbound international mail requiring air
transportation at rates set by the DOT. The Postal Service can contract for
international air transportation only when there is not sufficient capacity on a
route or when shipments are at least 750 pounds and contain no more than 5
percent letters. Additionally, the law generally requires the Postal Service to use
U.S.-flag carriers where available. By contrast, the Postal Service can contract
for all domestic air transportation except within Alaska.


How is it a burden?
The Postal Service believes the rates set by the DOT are far higher than those it
would pay on the free market and regulation hinders its ability to negotiate the
best service from carriers. The Postal Service would prefer to have the same
freedom to contract for air transportation internationally as it has domestically.


Can it be quantified?
The Postal Service spent $241 million on air transportation for international mail
in fiscal year (FY) 2005.2 It paid approximately 82 percent of this amount to U.S.-
flag carriers. A recent, validated estimate of the cost under the current rules
does not exist. The Postal Service previously estimated that it could save $40 to
$50 million annually if it were permitted to contract for international air

2
 The international air transportation of military mail cost an additional $468 million in FY 2005. The
Department of Defense reimburses the Postal Service for this cost.


                                                     -4-
transportation. In 2004 Postmaster General John E. Potter testified before a
congressional hearing that deregulating international air transportation rates
would save the Postal Service about $100 million annually

The Postal Service also offers anecdotal support for its belief that regulated rates
are too high. Foreign postal administrations competing with the Postal Service
for outbound international mail volumes pay less to transport mail abroad. Also,
the Postal Service can contract transportation for outbound international parcels
and they cost much less per pound to transport than letters paying the regulated
rates. Parcels, which are less dense than letters, actually ought to be more
costly per pound.


Can it be mitigated?
Congress could remove this burden by lifting all restrictions on the Postal
Service’s freedom to contract for international mail air transportation. The Postal
Service is mandated to operate in a businesslike manner, and we believe
purchasing air transportation for international mail should be no exception. We
believe the Postal Service should be free to negotiate its rates directly with any
carrier it deems appropriate.


CSRS Escrow Account


What is it?
The CSRS covers most federal employees, including Postal Service employees,
hired before 1984. The Postal Service must make payments to cover the future
costs of CSRS benefits. In December 2001, the Government Accountability
Office (GAO) questioned whether the Postal Service’s payments were sufficient
to cover these obligations, and OPM calculated the Postal Service’s liabilities
separately from the rest of the federal government and changed some
assumptions. OPM estimated the Postal Service would overpay the fund by $78
billion over the life of the CSRS.

Congress passed the Postal Civil Service Retirement System Funding Reform
Act of 2003 (Public Law 108-18), reducing the Postal Service’s annual payments
for FY 2003 to FY 2005. During these 3 years, the Postal Service saved $9.2
billion in payments, which the law required it to use for reducing debt and
keeping postage rates steady. Starting in FY 2006, the Postal Service must
place any savings into a separate escrow account and not use it until future
legislation authorizes it.




                                        -5-
How is it a burden?
The funds scheduled for the escrow account are no different from any other
revenue raised from postal ratepayers. Segregating them into a separate
account is an arbitrary exercise. In general, the Postal Service is not permitted to
charge its customers more than it needs for its expenses, but in January 2006
ratepayers began paying a 5.4 percent increase as a result of the escrow
requirement. We believe the Postal Service should be able to use the CSRS
savings in accordance with law as it sees fit. Monies generated from Postal
Service revenues should not be subject to outside control since they are not tax
dollars. Instead, they should be subject to normal usage for operations and
capital investment.


Can it be quantified?
The size of the escrow payment is the difference between what the Postal
Service would have paid had Public Law 108-18 not been enacted and the
contributions required under the act. It varies every year. For FY 2006, the
amount is estimated to total $3.1 billion.


Can it be mitigated?
Allowing the Postal Service to freely use the monies scheduled for the escrow
account would remove the cost burden. This removal would require legislation.
The Postal Service has proposed using the savings to keep postal rates low and
to prefund retiree health benefits.


CSRS Military Service


What is it?
Public Law 108-18, which reduced the Postal Service’s annual CSRS payments,
also required the Postal Service to fund the value of CSRS benefits attributable
to the military service of current and former employees. These costs, previously
the responsibility of the Treasury and funded through appropriations, relate to
military service performed before the individuals became postal employees.
According to the Postal Service, employees earned more than 90 percent of
these obligations before the creation of the Postal Service on July 1, 1971.




                                        -6-
How is it a burden?
Almost no other federal agency pays CSRS military service costs.3 We believe it
is not appropriate for Postal Service customers to pay, through postage, for these
costs when the military is clearly an obligation of the federal government. The
use of stamps to pay defense costs is, in essence, a “hidden tax” on Postal
Service customers. Both the President’s Commission and stakeholders in the
mailing industry have supported returning these costs to the Treasury.

In its proposal regarding military service payments requirements, the Postal
Service gives several additional reasons why it should not pay for CSRS military
service costs. Military service and civilian service are separate and distinct and,
historically, the Treasury has borne the CSRS costs of military service. Also,
most of the creditable service years were earned prior to the creation of the
Postal Service and the transfer of these costs to the Postal Service is retroactive.
Moreover, the Postal Service believes it is not appropriate to transfer military
service costs in exchange for giving the Postal Service the benefit of its CSRS
overpayment. They are unrelated and there is no justification under actuarial or
financial practice for relating them. The Postal Service should get proper credit
for its own contributions without any penalty.


Can it be quantified?
The total CSRS military service liabilities transferred to the Postal Service under
Public Law 108-18 equal $27 billion. The Congressional Budget Office has
estimated that removing this obligation will save the Postal Service $1.8 billion in
FY 2006.


Can it be mitigated?
CSRS costs associated with military service could be transferred back to the
Treasury. We believe ratepayers should not have to pay for a common
obligation of U.S. citizens through postage.


Conclusion

Two of five cost burdens – Alaska Bypass Service and DOT regulation of
international air transportation rates – have operational implications. The Postal
Service can make estimates, but the true costs cannot be known until they are
fixed. Providing Alaska Bypass Service is not necessary to carry out the Postal
Service’s mission of universal mail service, but it is at least related to it.
Additionally, Congress has recently introduced new laws to reduce the burden of

3
  According to the GAO, Power Marketing Administrations, self-supporting entities under the Department of
Energy, have agreed to pay military service costs. The Metropolitan Washington Airports Authority also
pays these costs for certain employees who transferred from the Federal Aviation Administration. Many
other self-supporting entities, however, do not.


                                                  -7-
Alaska Bypass Service on the Postal Service. There is, however, no compelling
reason for the continued regulation of international mail air transportation rates,
particularly since most domestic air transportation rates have long been
deregulated.

The Medicare Part D, CSRS escrow account, and CSRS military service issues
relate specifically to the way Postal Service and federal government costs are co-
mingled. The Postal Service can measure these costs. Lifting them may require
administrative changes, but not operational changes.

All of these burdens are political. Most affect the federal budget. They all raise
important questions as to whether Postal Service ratepayers should pay for
unique, politically controlled costs unrelated to universal postal service.

To run in a businesslike manner, the Postal Service should not be burdened with
costs unnecessary for core operations, and these costs are not negligible. They
constitute a combined annual cost of approximately $5.2 billion. To put this in
perspective, removing these five burdens would be equivalent to avoiding a
three-cent increase in the First-Class stamp price. Ratepayers deserve to pay
only the costs essential to the Postal Service’s core mission.




                                        -8-
                         Appendix 1: References

Medicare Part D

United States Postal Service publications

2004 Annual Report.

2005 Annual Report.

“Postal Service Applies as Medicare Part D Provider,” United States Postal
Service News Release No. 05-093, November 3, 2005.

GAO publication

Retiree Health Benefits: Options for Employment-Based Prescription Drug
Benefits under the Medicare Modernization Act, Report Number GAO-05-205,
February 14, 2005.

Other publications

Congressional Budget Office, A Detailed Description of CBO’s Cost Estimate for
the Medicare Prescription Drug Benefit, July 2004.

Department of Health and Human Services, Centers for Medicare & Medicaid
Services, Medicare Program; Medicare Prescription Drug Benefit; Final Rule, 70
Fed. Reg. 4193-4741, January 28, 2005.


Alaska Bypass Service

USPS Office of Inspector General publication

Intra-Alaska Bypass Mail Service, Product Number CQ-OT-02-005, August 2,
2002.

Other publications

“Changes in bypass mail bury some, buoy others,” Alaska Journal of Commerce,
Melissa Campbell, July 17, 2005, available at
www.alaskajournal.com/stories/071705/hom_20050717019.shtml.

“Stevens Legislation to Improve Bypass Mail System Passes Senate,” Senator
Stevens’ Press Release, July 24, 2002.




                                      -9-
International Air Transportation

USPS Office of Inspector General publication

Department of Transportation’s Regulation of International Mail Air
Transportation Rates (draft).

GAO publication

International Mail Air Transportation: Proposed Changes to the Rate-setting
Process, Report Number GAO-05-529R, April 8, 2005.

Other publication

H.R. 22 The Postal Modernization Act of 1999 Section-by-Section Analysis,
available at lobby.la.psu.edu/021_Postal_Service_Reform/frameset_postal.html.


CSRS Escrow Account and Military Service

United States Postal Service publication

Direct Testimony of William P. Tayman, Jr. on Behalf of United States Postal
Service (USPS-T-6), Postal Rate Commission Docket No. R2005-1, April 8,
2005.

USPS Office of Inspector General publication

Postal Service’s Funding of the Civil Service Retirement System, Product
Number FT-OT-04-002, April 9, 2004.

GAO publications

United States Postal Service: Information on Retirement Plans, Report Number
GAO-02-170, December 2001.

Review of the Office of Personnel Management’s Analysis of the United States
Postal Service’s Funding of Civil Service Retirement System Costs, Report
Number GAO-03-448R, January 31, 2003.

Postal Pension Funding Reform: Issues Related to the Postal Service’s
Proposed Use of Pension Savings, Report Number GAO-04-238, November 26,
2003.

Postal Pension Funding Reform: Review of Military Service Funding Proposals,
Report Number GAO-04-281, November 26, 2003.




                                      - 10 -
Other publications

Congressional Budget Office, The Effects of S. 662 on the Long-Term Financial
Outlook of the U.S. Postal Service, September 1, 2005.

Congressional Budget Office, Cost Estimate of S. 662, Postal Accountability and
Enhancement Act, July 1, 2005.

Congressional Research Service, Funding Postal Service Obligations to the Civil
Service Retirement System, Report Number RL31684, February 25, 2003.

Statement of the Honorable Dan G. Blair, Deputy Director Office of Personnel
Management, at a Hearing of the Subcommittee on Transportation, Treasury and
Independent Agencies Committee on Appropriations, U.S. House Of
Representatives, on Proposed Legislative Changes in U.S. Postal Service
Payments to Fund Retirement Benefits for Postal Employees under the Civil
Service Retirement System, March 27, 2003.

United States Senate Committee on Governmental Affairs, Postal Civil Service
Retirement System Funding Reform Act of 2003, Senate Report No. 35, 108th
Congress, 1st Session, April 8, 2003.




                                     - 11 -
                               Appendix 2: Summary Table

    Issue                          Burden                        Cost              Possible Mitigation
Medicare Part D     CMS, in consultation with OPM, has        $250 million     CMS and OPM could allow
                    rejected the Postal Service’s             annually[a]      the Postal Service to
                    application for the new prescription                       receive the Medicare Part D
                    drug rebate available to sponsors of                       rebate.
                    qualified prescription drug
                    coverage. Therefore, Postal Service
                    ratepayers cannot benefit from the
                    rebate.
Alaska Bypass       The Postal Service provides bypass        $50 million      The Postal Service could
Service             mail service for commodities in           annually[b]      receive compensation for
                    Alaska at a loss; the DOT sets                             this service or more
                    transportation rates.                                      freedom to perform it.
International       The Postal Service generally must         $40 million      The Postal Service could
Air                 pay DOT-regulated rates for               annually as      be allowed to contract for
Transportation      international mail air transportation     of 1999[c]       international mail air
                    and use U.S.-flag carriers.                                transportation.
CSRS Escrow         The Postal Service overpaid its           $3.1 billion     The Postal Service could
Account             CSRS obligations. Congress                for FY 2006[d]   be allowed to use the funds
                    allowed it to reduce its payments                          in escrow as it sees fit.
                    until 2006 when the savings is
                    placed in escrow.
CSRS Military       The Postal Service is now                 $1.8 billion     The Treasury could again
Service             responsible for paying the CSRS           for FY 2006[e]   assume the obligation for
                    costs associated with its retirees’                        retirees’ military service.
                    military service.

[a] United States Postal Service News Release No. 05-093, November 3, 2005.
[b] Alaska Journal of Commerce, Melissa Campbell, July 17, 2005, available at
    www.alaskajournal.com/stories/071705/hom_20050717019.shtml.
[c] H.R. 22 The Postal Modernization Act of 1999 Section-by-Section Analysis, available at
    lobby.la.psu.edu/021_Postal_Service_Reform/frameset_postal.html.
[d] Direct Testimony of William P. Tayman, Jr. (USPS-T-6) in Docket No. R2005-1, p. 11.
[e] Congressional Budget Office, Cost Estimate of S. 662, Postal Accountability and Enhancement Act,
    July 1, 2005, Table 2, CSRS on-budget effects.




                                                   - 12 -
